DOE/IG-0426




         AUDIT
        REPORT

                                DISPOSAL OF LOW-LEVEL
                                         AND
                                LOW-LEVEL MIXED WASTE




                                        SEPTEMBER 1998




   U.S. DEPARTMENT OF ENERGY
  OFFICE OF INSPECTOR GENERAL
    OFFICE OF AUDIT SERVICES
                                         September 3, 1998



MEMORANDUM FOR THE SECRETARY

FROM:          Gregory H. Friedman
               Acting Inspector General

SUBJECT:       INFORMATION: Audit Report on "Disposal of Low-Level and Low-Level
                            Mixed Waste"

BACKGROUND

The Department of Energy (Department) is faced with the legacy of thousands of contaminated
areas and buildings and large volumes of "backlog" waste requiring disposal. Waste management
and environmental restoration activities have become central to the Department’s mission. One of
the Department’s priorities is to clean up former nuclear weapons sites and find more effective and
timely methods for disposing of nuclear waste. This audit focused on determining if the Department
was disposing of low-level and low-level mixed waste in the most cost-effective manner.

RESULTS OF AUDIT

The Department generally did not dispose of low-level and low-level mixed waste as
cost-effectively as possible. The Department’s waste disposal strategy relied upon many factors,
including the environmental impact, state equity, transportation routes, litigation involving disposal
sites, public and regulator interaction, funding limitations, and long-term mission needs. Had cost
been the only criterion in making decisions on disposing of waste, the Department could have saved
$5.3 million in disposal costs for low-level waste between Fiscal Years (FY) 1993 and 1996. In
addition, the Department built low-level waste disposal facilities at Savannah River and Oak Ridge
even though off-site disposal would have been more cost-effective. The Savannah River and Oak
Ridge facilities were built at a cost of $27.1 million.

We recommended that the Acting Assistant Secretary for Environmental Management (1) revise the
Departmentwide strategy for disposal of low-level and low-level mixed waste, (2) require
justification and a cost-benefit analysis before constructing any additional on-site disposal facilities,
and (3) periodically evaluate sites’implementation of the Departmentwide strategy to ensure
disposals are made in a cost-effective manner.
                                                   -2-


MANAGEMENT REACTION

Management concurred with the finding and recommendations stating that the Department will use the
report as part of the structure it is developing to support the low-level and low-level mixed waste
management program.

Attachment

cc: Deputy Secretary
    Under Secretary
DISPOSAL OF LOW-LEVEL AND LOW-LEVEL MIXED WASTE

TABLE OF
CONTENTS



               Overview

               Introduction and Objective .........................................................1

               Conclusions and Observations.................................................. 3


               Waste Disposal

               Details of Finding ......................................................................4

               Recommendations and Comments .........................................13


               Appendix

               Scope and Methodology ..........................................................14


               Exhibits

               Savannah River Site Low Activity Waste Vaults ......................16

               Oak Ridge National Laboratory Interim Waste
                Management Facility .............................................................17
Overview

INTRODUCTION AND   Since the end of the Cold War, the Department has been faced with the
OBJECTIVE          legacy of thousands of contaminated areas and buildings and large
                   volumes of "backlog" waste and special nuclear materials requiring
                   disposal. Waste management and environmental restoration activities
                   have become central to the Department's mission. One of the
                   Department’s priorities is to clean up former nuclear weapons sites and
                   find more effective and timely methods for disposing of nuclear waste.
                                                                                                  1
                   The Department will have to dispose of large volumes of low-level and
                                           2
                   low-level mixed waste to meet its goals. Throughout this report, low-
                   level mixed waste will be referred to as mixed waste. The Department
                   estimated that it will need to dispose of 3.4 million cubic meters of low-
                   level waste and 419,000 cubic meters of mixed waste. To gain some
                   perspective concerning the volume of waste, 100,000 cubic meters has
                   about the same volume as a 7-story building the size of a football field.
                   Some of the Department’s waste is currently in storage, but most of the
                   waste will be generated over the next 20 years as part of the
                   Department’s environmental restoration activities. The waste volume
                   estimates are based on end uses of land that range from the Department
                   maintaining institutional control over a site to complete cleanup of a site.

                   The Department established the Office of the Assistant Secretary for
                   Environmental Management (EM), formerly the Office of the Assistant
                   Secretary for Environmental Restoration and Waste Management, in
                   1989 to accelerate the cleanup of inactive production facilities and sites.
                   The EM program had a FY 1997 budget of $6 billion. The
                   Department’s estimate to complete the EM program was $147 billion as
                   of February 1998.




                   ______________________________
                   1
                     Low-level waste has a wide range of characteristics, but most of it contains small
                   amounts of radioactivity in large volumes of material.
                   2
                     Low-level mixed waste is low-level radioactive waste that also contains hazardous
                   components.




Page 1                                                               Disposal of Low-Level and
                                                                       Low-Level Mixed Waste
         The Offices of Waste Management and Environmental Restoration have
         primary responsibility for cleaning up more than 150 sites in over 30
         states. Waste Management is responsible for the safe treatment, storage,
         and disposal of waste. Environmental Restoration is responsible for the
         remediation of contaminated soil and water as well as the
         decommissioning of contaminated surplus facilities. This audit was
         limited to disposal options for waste that were managed by the Waste
         Management organization.

         During our audit, several legal issues involving the Department's
         agreement with a commercial facility, and, separately, with the State of
         Nevada over the use of the Nevada Test Site (NTS) were unresolved.
         The resolution of these legal issues could impact the effect of our
         recommendations.

         The Office of Inspector General (OIG) has issued four reports dealing
         with shipments of contaminated waste to disposal facilities. In April
         1992, the OIG issued Report DOE/IG-0308, Packaging, Transporting,
         and Burying Low-Level Waste. The audit concluded that the Department
         was not using cost-effective methods for disposing of low-level waste. In
         February 1993, the OIG issued Report DOE/IG-0320, Disposal of
         Excess Capital Equipment at the Fernald Environmental Management
         Project, Fernald, Ohio. The audit disclosed that Westinghouse
         Environmental Management Company of Ohio mixed contaminated
         equipment with uncontaminated equipment, destroyed the equipment
         without Departmental approval, and shipped the equipment to NTS for
         burial as contaminated waste. In June 1994, the OIG issued
         Report ER-B-94-07, Audit of Shipment of Low-Level Waste from
         Fernald to the Nevada Test Site. The audit concluded that Fluor Daniel
         Fernald shipped usable materials to NTS as contaminated waste, and that
         the contents of the shipments were not compacted to maximize the use of
         burial space. Finally, in December 1997, the OIG issued
         Report ER-B-98-05, Audit of the Department of Energy's Contracts with
         Envirocare of Utah, Inc. The audit disclosed that although volume
         discounts were available under Departmentwide contracts, two of the
         Department’s contractors awarded subcontracts to Envirocare with rates
         that were higher than the Departmentwide rates.
         When the Department did dispose of its waste, it did not always choose
         the least costly alternative. Savannah River and Oak Ridge National




Page 2                                               Disposal of Low-Level and
                                                       Low-Level Mixed Waste
                  The objective of this audit was to determine whether the Department
                  disposed of low-level and mixed waste in the most cost-effective manner.

                  The Department generally did not dispose of low-level and mixed waste
                  as cost-effectively as possible. Most Department facilities stored large
CONCLUSIONS AND
                  quantities of waste on-site, and when disposals of low-level waste were
OBSERVATIONS
                  made, they were often not cost-effective. Many factors played a
                  significant role in the Department's waste disposal strategy. These
                                                                         3
                  included environmental considerations, state equity , transportation
                  routes, litigation involving disposal sites, public and regulator interaction,
                  funding limitations, and long-term mission needs. As a result of the
                  impact that these and other factors had on the decision-making process,
                  the Department incurred $5.3 million in unnecessary disposal costs for
                  low-level waste between FYs 1993 and 1996. Also, the Department
                  incurred $27.1 million to build low-level waste disposal facilities at
                  Savannah River and Oak Ridge even though off-site disposal would have
                  been more cost-effective.

                  The audit identified material internal control weaknesses that
                  management should consider when preparing the yearend assurance
                  memorandum on internal controls.




                                                                    /s/
                                                               Office of Inspector General




                  _____________________
                  3
                    State equity means that all states are treated equally and fairly when waste disposal
                  options are considered.




Page 3                                                                 Disposal of Low-Level and
                                                                         Low-Level Mixed Waste
WASTE DISPOSAL


Department Did Not        The Department generally did not dispose of low-level and mixed waste
Dispose of Waste          in the most cost-effective manner. The Department stored large
Cost-Effectively          quantities of low-level waste at 5 sites and mixed waste at 11 sites, rather
                          than dispose of the waste. Although NTS, Hanford, and Fernald
                          disposed of their low-level waste economically, three other sites made
                          low-level disposals that were not cost-effective.

Five Sites Stored Large   Five Departmental sites stored large quantities of low-level waste on-site
Quantities of Low-Level   even though some of the waste could have been disposed of for less than
                          the cost to store it. The following table shows the inventory of low-level
Waste On-Site
                          waste in storage at the beginning of FY 1993 and the end of FY 1996 and
                          the amount of waste disposed of by the sites between FYs 1993 and
                          1996.


                                             Cubic Meters of Low-Level Waste

                                                                 FY 1993      FY 1996
                                          Site                   Inventory    Inventory     Disposed

                          East Tennessee
                           Technology Park (ETTP)                     4,435        8,715        1,568
                          Rocky Flats                                 3,094        6,626          900

                          Portsmouth                                  6,553       10,704          510

                          Paducah                                     3,957        5,198           21

                          Y-12                                        2,282        6,972            0


                            Totals                                   20,321       38,215        2,999


                          The table shows that the Department made little progress in disposing of
                          low-level waste at the five sites. The volume of waste in storage at the
                          sites almost doubled between 1993 and 1996, going from over 20,000
                          cubic meters to over 38,000 cubic meters. In this 4-year period, only
                          3,000 cubic meters of low-level waste had been disposed of. At this rate,
                          it would take over 50 years to dispose of the existing waste.




Page 4                                                                           Details of Finding
                      The Department could have disposed of some of the waste for less than
                      the cost to store it. For example, the Department's budget for FY 1997
                      was about $4 million annually to store low-level waste at Rocky Flats;
                      however, the waste could have been disposed of at NTS for a one-time
                      cost of about $5 million. Similarly, the Department currently spends
                      about $1.3 million annually to store 3,000 cubic meters at ETTP which
                      could be disposed of at a commercial facility for $2 million.

Eleven Sites Stored   In addition to low-level waste, the Department also stored large
Large Quantities of   quantities of mixed waste at 11 sites. (These sites are identified on page
Mixed Waste On-Site   14 of this report.) The inventory of mixed waste in storage at the
                      beginning of FY 1993 was 76,092 cubic meters. The inventory grew to
                      104,145 cubic meters by the end of FY 1996. The amount of waste
                      disposed of between FYs 1993 and 1996 was 13,611 cubic meters. Two
                      Departmental sites, Hanford and NTS, can dispose of their own mixed
                      waste, but cannot accept mixed waste generated at other sites. There
                      was only one commercial alternative for disposal of mixed waste.

                      Some of the sites incurred significant recurring storage costs, even
                      though the mixed waste could have been disposed of at a much lower
                      one-time cost. For example, ETTP had 19,500 cubic meters of mixed
                      waste ready for shipment in FY 1992. However, the waste remained in
                      storage through FY 1997. The FY 1997 storage budget for the waste
                      was $4.9 million. Therefore, based on the FY 1997 storage budget, the
                      Department incurred about $29.4 million to store the mixed waste
                      through FY 1997; however, it could have disposed of the waste at the
                      commercial facility for only $27.8 million using calendar year 1997
                      disposal rates. Approximately 940 cubic meters of the waste were
                      disposed of in FY 1998.

                      Sites were storing mixed waste even though they recognized and
                      acknowledged that disposal at a commercial facility was more cost-
                      effective. In August 1995, the Westinghouse Savannah River Company
                      issued a report identifying about 2,800 cubic meters of mixed waste
                      which could have been treated on-site and then disposed of at a
                      commercial facility for $1.5 million. Despite the conclusion of the
                      Westinghouse report, Savannah River has chosen not to dispose of the
                      waste and spent $4.1 million in FY 1996 storing the 2,800 cubic meters
                      of mixed waste.




Page 5                                                                      Details of Finding
Prior Disposals of   Laboratory (ORNL) disposed of waste on-site when disposal off-site
Low-Level Waste      would have been more cost-effective. Rocky Flats disposed of low-level
Were Not Always      waste at Hanford when disposal at NTS or a commercial facility would
Cost-Effective       have been more cost-effective.

                     Six of the Department's sites— Hanford, NTS, Idaho National
                     Engineering and Environmental Laboratory (INEEL), ORNL, Savannah
                     River, and Los Alamos National Laboratory (LANL)— maintained low-
                     level waste disposal facilities. Hanford and NTS were Departmentwide
                     disposal alternatives, and the other four sites could only dispose of waste
                     that was generated on-site.

                     The following graph shows a comparison of the cost of disposal of
                     low-level waste at a commercial facility and Departmental Waste
                     Management disposal sites:



                                           Low-Level Waste Disposal Rates
                      2500
                             Dollars per Cubic Meter




                      2000




                      1500




                      1000




                      500




                        0
                                   Nevada Test   Commercial                             Savannah
                                                              Hanford   INEEL   ORNL
                                      Site        (Debris)                                River

Page 6                                                                          Details of Finding
         As the graph illustrates, the disposal rate per cubic meter differs
                                                      4
         significantly for the five Departmental sites and a commercial facility.
         The comparative disposal costs per cubic meter include only costs
         directly related to operating the disposal facility at each site. Excluded
         are overhead or support costs for operating the overall facilities. The
         commercial facility's rates are based on a contract available to all Federal
         agencies for the disposal of low-level waste.

         After considering disposal rates, packaging, and transportation, we
         determined that three sites made uneconomic disposals. Between
         FYs 1993 and 1996, two sites disposed of low-level waste on-site when
         disposal at Hanford or a commercial facility would have been more cost-
         effective. ORNL disposed of 2,825 cubic meters in its Interim Waste
         Management Facility when disposal at Hanford would have resulted in a
         savings of $3 million. Also, Savannah River disposed of 2,031 cubic
         meters in its Low Activity Waste Vaults when disposal at Hanford
         would have been more cost-effective, and could have resulted in a
         savings of $2.2 million. ORNL and Savannah River could not dispose of
         the waste at NTS pending settlement of a lawsuit involving the State of
         Nevada. The third site, Rocky Flats, sent some of its waste to Hanford
         when disposal at NTS would have been slightly more cost-effective,
         resulting in a savings of $39,000.

         In the future, four sites have opportunities for more cost-effective
         disposals if NTS is used as a disposal destination instead of on-site
         disposal or disposal at Hanford. Savannah River, ORNL, Portsmouth,
         and Rocky Flats could save $12.5 million in disposal costs over the next
         5 years if NTS is used. In addition, these four sites could dispose of
         their waste at a commercial facility which would also result in significant
         savings.

         Moreover, one of the Department's waste disposal facilities may not
         result in permanent disposal. The State of Tennessee Department of
         Environment and Conservation stated that ORNL’s Interim Waste
         Management Facility, used to dispose of low-level waste, failed to meet
         the specified performance objectives for safety, and, as a consequence,
         some containers of waste had to be removed from the facility. As a

         ______________________________
         4
          LANL was not included in the analysis because LANL performed a study in 1996
         which concluded that off-site disposal was considerably more expensive than on-site
         disposal. We did not verify the conclusions of the LANL report.



Page 7                                                                Details of Finding
                       result, the Interim Waste Management Facility could not be
                       categorized as a permanent disposal facility. The Defense Nuclear
                       Facilities Safety Board (Defense Board) was also concerned about
                       this subject. In Recommendation 94-2, the Defense Board stated that
                       the Department’s burial of low-level waste in some locations actually
                       constitutes "nuclear waste storage" since inadequate emplacement
                       may require later retrieval of the waste.

Cost Was Only One of   Departmental low-level and mixed waste disposal activities were
Many Factors the       generally not cost-effective because factors other than cost played an
Department Had to      integral role in the Department's waste disposal strategy. According
Consider               to Environmental Management officials, the process utilized by the
                       Department to determine how and where to dispose of its low-level
                       and mixed wastes generally was part of a decision on what action will
                       be performed at a site, facility, or building that is either contaminated
                       or contains legacy waste. Departmental officials informed us that
                       from the outset of this process, the Department works closely with
                       the local citizens and elected officials, as well as the regulators,
                       disposal facility operators, and others in the commercial sector. We
                       were told that this process requires the Department to: (i) analyze
                       reasonable alternatives for the proposed action in concert with the
                       stakeholders, including the related risks in health, technology, and
                       schedule; and (ii) review reasonable alternatives for treatment, for
                       storage and on-site disposal, or for transportation to a permitted off-
                       site disposal facility, whether it is a Departmental facility or a
                       permitted commercial disposal facility. Each alternative was
                       influenced by additional factors related to specific sensitivities
                       associated with the site and the waste. Environmental Management
                       further stated that there are instances where these factors outweigh
                       the simple cost comparison and when the Department may select an
                       alternative which is not the cheapest, but is programmatically the
                       most effective.

                       The Department reacted to these factors by placing less emphasis on
                       cost and more emphasis on disposal at Departmental facilities.
                       Specifically, the Department (1) developed a preference for on-site or
                       Departmental disposal rather than off-site or commercial disposal,
                       (2) did not establish a Departmentwide disposal site for mixed waste,
                       (3) restricted shipments to NTS pending settlement of a lawsuit




Page 8                                                                     Details of Finding
                             involving the State of Nevada, and (4) did not fully evaluate commercial
                             disposal capabilities.

                             Prior to 1979, the Department used commercial facilities for the disposal
Preference for Disposal at   of its low-level and mixed waste. However, the Department then
                             changed its policy and decided to rely primarily on its own facilities for
Departmental Facilities
                             disposal of waste, with only limited use of commercial facilities.
                             According to Environmental Management officials, the Department
                             made this change because operational and environmental problems were
                             surfacing at some commercial disposal sites, and others were being
                             closed to out-of-state wastes. Due to these events and to ensure an
                             outlet for disposal, the Department made this change in policy.

                             In September 1988, Departmental Order 5820.2A, Radioactive Waste
                             Management, was issued, stating that it was the Department's policy to
                             dispose of low-level waste on the site at which the waste is generated, or
                             at another Departmental facility. In the early 1990s, the Department
                             granted exemptions to its policy on a case-by-case basis for small
                             quantities of waste. However, site personnel believed that the
                             exemption process was cumbersome, stating that it sometimes took a
                             year to get approval to ship a small quantity of waste to a commercial
                             facility. In an attempt to improve the process, the delegation of
                             authority to grant exemptions from Order 5820.2A was passed to the
                             field level in October 1996. However, the delegation of authority stated
                             that it continued to be the Department’s preference to dispose of waste
                             at the Department's disposal facilities. Also, an update to Order
                             5820.2A (Draft Order 435.1), issued in March 1997, did not change the
                             Department’s preference for disposal at Departmental facilities.
                             However, it did allow for disposal at commercial facilities when it is
                             more cost-effective and in compliance with regulations and the waste-
                             acceptance criteria for the facility.

                             Recent policy documents published by the Department reinforce the
                             requirement to dispose of low-level waste at Departmental facilities.
                             The Department’s Final Waste Management Programmatic
                             Environmental Impact Statement, issued in May 1997, did not consider
                             commercial disposal to be an alternative. This document will serve as
                             the basis for the Record of Decision concerning the disposal destination
                             of low-level and mixed waste. Further, the Department’s Low-Level
                             Waste Disposal Cost Comparison Report, dated July 15, 1997, did not
                             include commercial disposal costs in the analysis.




Page 9                                                                             Details of Finding
                       In March 1998, the Department took an important step to change its
                       disposal policy by publishing a Notice of Intent to Conduct Policy
                       Analysis (Notice of Intent) in the Federal Register. The Notice of
                       Intent encouraged the private sector to compete for the Department's
                       low-level and mixed waste disposal business. According to
                       Environmental Management officials, while the Department still
                       primarily relies on its own facilities for disposal of low-level and mixed
                       waste, the use of commercial disposal facilities has increased in recent
                       years. The future use of commercial disposal facilities may occur as the
                       Department proceeds with the cleanup of its sites and the volume of
                       waste requiring disposal increases. These developments have generated
                       increased interest in the commercial sector to compete for disposal of
                       the Department's waste. The Department is interested in encouraging
                       competition of this business, and determined that an analysis of its
                       current policy which favors the use of its own facilities would be the
                       proper course of action. The goal of the policy analysis is to assist the
                       Department in determining whether it should change its policies or
                       practices relating to the use of commercial facilities for the disposal of
                       low-level and mixed waste. The Notice of Intent and a solicitation of
                       public input for the policy analysis was published in the Federal
                       Register, Volume 63, Number 53, Thursday, March 19, 1998.

                       The Notice of Intent was prompted by the receipt of two proposals from
                       private entities that would have involved a departure from the standard
                       requirement for private entities to have their own licenses to operate
                       radioactive disposal facilities. The goal of the policy analysis was to
                       determine whether to continue the use of existing disposal facilities with
                       commercial licenses, pursue disposal options represented by either or
                       both of the proposals, or change in other respects the Department's
                       policies or practices relating to the use of commercial facilities for
                       disposal of low-level and mixed waste.

                       The Department did not establish a Departmentwide site for the disposal
Mixed Waste Disposal   of mixed waste. Hanford and NTS could only accept mixed waste
Site                   generated on-site. Therefore, the other sites had no Departmental
                       disposal option. Savannah River stated that it had no firm plans for
                       future disposal and was waiting for the Department's decision on where
                       disposal facilities will be located. However, as of March 1994,
                       Departmental sites had the option to use a commercial facility because
                       the Oak Ridge Operations Office awarded a Departmentwide contract to
                       a commercial facility for the disposal of mixed waste from all sites.
                       The Department restricted the use of NTS pending settlement of a



Page 10                                                                      Details of Finding
Restricted Use of     lawsuit. The State of Nevada (State) filed a lawsuit against the
Nevada Test Site      Department in June 1994. To address the State's concerns, the
                      Department performed a Sitewide Environmental Impact Statement for
                      NTS and issued the resulting Record of Decision in December 1996.
                      The Record of Decision stated that the Department would restrict the
                      disposal of low-level waste to those sites which had previously disposed
                      of waste at NTS, pending decisions under the Department’s Waste
                      Management Programmatic Environmental Impact Statement (PEIS)
                      and resulting Record of Decision. The Department settled the lawsuit in
                      April 1997. The final PEIS on Waste Management was issued in May
                      1997. The Record of Decision is expected in December 1998.

                      Some sites were not fully aware that they could dispose of significant
Sites Not Aware of    portions of local low-level waste at commercial facilities. For example,
Commercial Disposal   ORNL officials believed that their waste could not be disposed of at a
Acceptance Criteria   commercial facility because it contained special isotopes that would not
                      be acceptable. However, we compared waste characterization
                      information for past disposals and waste currently in storage at 10
                      Departmental sites with the waste acceptance criteria at the commercial
                      facility, and determined that 25,920 cubic meters out of 57,002 cubic
                      meters (45 percent) of the Department's low-level waste met the
                      commercial facility's waste acceptance criteria. The Department's
                      INEEL and Hanford sites performed their own analyses, on which we
                      relied. The following graph shows the results of the comparison for
                      each of the sites reviewed:



                                Percent of Low-Level Waste Suitable for Disposal
                                            at a Commercial Facility
                       100%


                       80%


                       60%


                       40%


                       20%


                        0%
                              Hanford   ORNL   Savannah   ETTP and   INEEL   Rocky Flats   NTS   Fernald   Portsmouth
                                                 River      Y-12

Page 11                                                                                    Details of Finding
Department Has         As a result of these conditions, the Department has not chosen the most
Incurred Unnecessary   cost-effective alternative for the disposal of much of its low-level and
Costs                  mixed waste. The Department could have avoided $5.3 million on
                       disposals of low-level waste at 3 sites between FYs 1993 and 1996.
                       Also, the Department could avoid an additional $12.5 million over the
                       next 5 years by using NTS for future disposals of low-level waste.

                       Further, the audit disclosed that the Department incurred $27.1 million
                       to build low-level waste disposal facilities at Savannah River
                       (Exhibit A) and Oak Ridge National Laboratory (Exhibit B) even though
                       off-site disposal would have been more cost-effective. For example, if
                       Savannah River’s Low Activity Waste Vaults were used to capacity, the
                       Department would spend $73.4 million on low-level waste disposal. In
                       comparison, the same amount of waste could be disposed of at a cost of
                       $29.5 million had Hanford been used for past disposals and NTS used
                       for future disposals. Our analysis showed that the cost- effectiveness of
                       operating the Interim Waste Management Facility at the Oak Ridge
                       National Laboratory was similar. In the case of both Savannah River
                       and Oak Ridge, we excluded the $27.1 million in "sunk" construction
                       costs from our analysis.




Page 12                                                                     Details of Finding
RECOMMENDATIONS       We recommend that the Acting Assistant Secretary for Environmental
                      Management:

                      1. Revise the Departmentwide strategy for disposal of low-level and
                         mixed waste to include:

                          a.    distribution of a list of Departmental and commercial disposal
                                rates with a requirement for field offices to use the most
                                favorable rates available as an integral factor in determining
                                the best disposal path;

                          b.    a Departmentwide policy for the disposal of mixed waste;

                          c.    identification of low-level waste that can be disposed at
                                commercial facilities;

                      2. Require justification and a cost-benefit analysis before constructing
                         any additional on-site disposal facilities; and

                      3. Periodically evaluate sites’implementation of the Departmentwide
                         strategy to ensure disposals are made in a cost-effective manner.

                      Management concurred with the finding and recommendations stating
MANAGEMENT REACTION   that the Department will use the report as part of the structure it is
                      developing to support the low-level and low-level mixed waste program.
                      Also, management stated that they fully intend to utilize the report to
                      increase the efficiency of the waste management program.

                      We consider management's reaction to be responsive to the audit
AUDITOR COMMENTS      recommendations.




Page 13                                                 Recommendations and Comments
Appendix

SCOPE         The audit was performed from September 10, 1996, to December 24,
              1997, at Headquarters and the following 11 sites: Y-12 Plant, ETTP,
              and ORNL in Oak Ridge, Tennessee; Paducah Gaseous Diffusion Plant
              in Paducah, Kentucky; Portsmouth Gaseous Diffusion Plant in Piketon,
              Ohio; Fernald Environmental Management Project near Ross, Ohio;
              NTS near Las Vegas, Nevada; Hanford Site near Richland, Washington;
              INEEL in Idaho Falls, Idaho; Rocky Flats Environmental Technology
              Site in Golden, Colorado; and Savannah River Site near Aiken, South
              Carolina. The scope of the audit included inventories and disposals of
              low-level and mixed waste from FY 1993 through FY 1996. The scope
              was limited to "contact-handled" low-level waste and did not include
              "remote-handled" low-level waste. Costs of waste characterization
              varied significantly from site to site and were not included in our
              analyses. Also, the audit scope included some actual and budget cost
              data from FY 1997.

METHODOLOGY   To accomplish the audit objective, we:

                     • Evaluated Departmental guidance for the storage and
                       disposal of low-level and mixed waste;

                     • Determined the amount and destination of past disposals and
                       current inventories at each site;

                     • Determined the cost of disposing of low-level waste at
                       Departmental and commercial facilities;

                     • Compared waste characterization information for low-level
                       waste from selected sites with waste acceptance criteria for
                       Departmental and commercial disposal facilities;

                     • Toured five of the Department’s six low-level waste disposal
                       facilities; and

                     • Held discussions with Departmental, contractor, and
                       commercial disposal personnel.




Page 14                                                   Scope and Methodology
          The audit was performed in accordance with generally accepted
          Government auditing standards for performance audits and included
          tests of internal controls and compliance with laws and regulations to the
          extent necessary to satisfy the audit objective. Accordingly, we assessed
          significant internal controls related to the disposal of low-level and
          mixed waste. Because our review was limited, it would not necessarily
          have disclosed all internal control deficiencies that may have existed at
          the time of our audit.

          We relied on computer-generated data in waste management information
          systems to accomplish the audit objective. We reviewed the general and
          application controls and found them to be adequate. However, we did
          not test the implementation of the controls. Rather, we relied on
          reliability tests performed by site personnel and state regulators. Based
          on these assessments, we concluded that the data were sufficiently
          reliable to be used in meeting the audit objective. However, the
          Paducah Gaseous Diffusion Plant was excluded from the automated
          analysis because its database did not contain characterization
          information that was needed to perform the analysis.

          We held an exit conference with the Acting Assistant Secretary for
          Environmental Management on July 30, 1998.




Page 15                                                 Scope and Methodology
Exhibit A

                                        Savannah River Site
                                      Low Activity Waste Vaults




  These low-level waste concrete disposal vaults were constructed in 1994 at a cost of $24 million. The
  vaults hold 33,927 cubic meters of waste and were only at 8-percent capacity as of March 1997.


Page 16
Exhibit B

                                   Oak Ridge National Laboratory
                                 Interim Waste Management Facility




  This low-level tumulus facility was constructed between 1992 and 1995 at a cost of $3.1 million. The
  facility holds 5,370 cubic meters of waste and was at 53-percent capacity as of October 1996.


Page 17
                                                                               IG Report No. DOE/IG-0426

                                    CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We
wish to make our reports as responsive as possible to our customers' requirements, and, therefore, ask that
you consider sharing your thoughts with us. On the back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please include answers to the following questions if they are
applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the
   audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this
   report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more
   clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this
   report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions
about your comments.

Name _____________________________             Date __________________________

Telephone _________________________            Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at (202) 586-
0948, or you may mail it to:

                                     Office of Inspector General (IG-1)
                                           Department of Energy
                                          Washington, DC 20585

                                        ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
effective as possible. Therefore, this report will be available electronically through the Internet at the
following alternative address:


                  Department of Energy Human Resources and Administration Home Page
                                       http://www.hr.doe.gov/ig

                     Your comments would be appreciated and can be provided on the
                            Customer Response Form attached to the report.

                                    This report can be obtained from the
                                        U.S. Department of Energy
                               Office of Scientific and Technical Information
                                                P.O. Box 62
                                       Oak Ridge, Tennessee 37831
